NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



        AUDIT MEMORANDUM: EMPLOYEE
          STATE TAX WITHHOLDINGS

               Report #OIG-05-9
              September 30, 2005




               William A. DeSarno
               Inspector General


                  Prepared by:


           Charles E. Funderburk, CPA
                 Senior Auditor
TO:          J. Leonard Skiles
             Executive Director

FROM:        William A. DeSarno
             Inspector General

DATE:        September 30, 2005

SUBJECT:     Employee State Tax Withholdings
             Report #OIG-05-9


The National Credit Union Administration Office of Inspector General (NCUA OIG)
performed a proactive review of NCUA employees’ compliance with personal state
income tax obligations. The NCUA OIG initiated this engagement as a joint audit and
investigative engagement.

OBJECTIVE

The overall objective of this engagement was to identify any NCUA employees who may
be delinquent in paying state income taxes. Our two specific objectives were to:
   • Identify NCUA employees who had $0 state income tax withholdings and;
   • Identify NCUA employees with $0 state income tax withholdings and whose
       address is a post office box in a non-taxable state.

SCOPE AND METHODOLOGY

The scope of this engagement was to review and analyze employee state tax
withholdings in 2004, as reported on employee Internal Revenue Service (IRS) W-2
forms. The OIG plans to conduct a separate analysis regarding employees’ Federal tax
withholdings.

The OIG obtained a listing of NCUA employee 2004 W-2s from the General Services
Administration National Payroll Center with the assistance of NCUA’s Deputy Chief
Financial Officer. We sorted the W-2 records by:
    • Ascending dollar amount of state withholding taxes
    • Ascending dollar percentage of state withholding taxes to gross wages
    • Alphabetical listing of employee name with state filing address

Since this was a limited scope review, this engagement was not performed in
accordance with Generally Accepted Government Auditing Standards.


                                          1
BACKGROUND

Tax abuse by federal employees and contractors has received recent congressional
attention. The United States Government Accountability Office (GAO) recently
performed an audit (report GAO-05-637) to determine the magnitude of unpaid taxes of
contractors at federal civilian agencies. GAO reported that records showed about
33,000 civilian agency contractors owed over $3 billion in unpaid federal taxes as of
September 30, 2004. Federal employees are expected to satisfy their just financial
obligations. Failure to do so violates the Standards of Ethical Conduct for Employees of
the Executive Branch (5 C.F.R. 2635.101 (b) (12).

ANALYSIS

There were a total of 1,011 employee W-2 records for 2004. Ten states do not have a
personal income tax on employee wages.

We identified five employees who had $0 state income tax withheld and resided in a
personal income taxable state. Three of those employees had wages under $8,100.
The other two employees had gross wages of $40,836 and $70,015. In addition, we
identified two employees who had an effective state tax withholding rate of 0%. These
two employees resided in personal income taxable states. Their wages were $55,221
and $29,872.

We also identified one employee who had a residence address listed in a non-taxable
state, but had a taxable state listed for withholding tax purposes. This employee had $0
in state withholding taxes for the year.

Finally, we identified four employees who had post office boxes listed for their
addresses. These post office box addresses were in non-taxable states but were
located approximately 50 miles or less from a taxable state border.

CONCLUSION

Overall, our review revealed relatively few employees with no state withholding taxes or
questionable post office box addresses. The few instances of questionable
withholdings were referred to the OIG Director of Investigations for investigative
consideration.

Distribution:
       Board Chairman, JoAnn M. Johnson
       Deputy Executive Director, Jane Walters
       Chief Financial Officer, Dennis Winans
       Director Office of Human Resources, Sherry Turpenoff




                                           2
